TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Security Controls Over Wireless Technology
                  Were Generally in Place; However, Further
                        Actions Can Improve Security



                                      September 26, 2011

                              Reference Number: 2011-20-101




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


SECURITY CONTROLS OVER WIRELESS                      laptops were authorized to access the network,
TECHNOLOGY WERE GENERALLY IN                         the use of personal wireless devices is
PLACE; HOWEVER, FURTHER ACTIONS                      prohibited.
CAN IMPROVE SECURITY                                 In addition, the IRS developed software to
                                                     enable laptops to wirelessly connect to the IRS
                                                     network from non-IRS facilities (home, airport, or
Highlights                                           hotel) and allowed its use by approximately
                                                     300 users before the software was properly
Final Report issued on                               tested and approved for use enterprise-wide.
September 26, 2011                                   Due to a lack of proper controls, the software
                                                     was improperly shared and is currently in use on
Highlights of Reference Number: 2011-20-101          an unknown number of IRS computers, even
to the Internal Revenue Service Chief                though the IRS has subsequently abandoned
Technology Officer.                                  this software and is currently testing a new
                                                     configuration.
IMPACT ON TAXPAYERS
                                                     In addition, the IRS did not ensure timely
The Internal Revenue Service (IRS) currently         monitoring of the wireless router configuration
uses limited wireless technology but is in the       files on the existing approved WLAN.
process of expanding its use to help carry out its
mission. TIGTA found that controls over              WHAT TIGTA RECOMMENDED
wireless technology were generally in place;
                                                     TIGTA recommended that the Chief Technology
however, further actions can improve security.
                                                     Officer 1) implement automated nationwide
Strong security over wireless technology is
                                                     network scans for unauthorized wireless activity,
critical for protecting IRS and taxpayer data from
                                                     devices, and software using automated tools
attacker exploits.
                                                     and improve incident handling and investigation
WHY TIGTA DID THE AUDIT                              processes so that when unauthorized wireless
                                                     activity is identified, subsequent investigations
This audit is included in our Fiscal Year 2011       and disciplinary actions are effective; 2) ensure
Annual Audit Plan and addresses the major            that a security assessment and authorization is
management challenge of Security. The overall        completed for all wireless technologies prior to
objectives of this review were to determine          use in the IRS environment, in compliance with
whether the IRS has implemented effective            IRS policy; and 3) ensure the Enterprise
controls to detect unauthorized use of the           Networks organization takes appropriate action
wireless local area network (WLAN) technology,       to reinstate monitoring and tracking of
and to determine whether the IRS’s current           configuration files on the WLAN at the National
approved wireless network at its National            Distribution Center at appropriate intervals to
Distribution Center and its plans for increasing     ensure all files are set in accordance with IRS
authorized use of WLAN technology at IRS             security policy.
facilities are in accordance with Federal wireless
security standards.                                  The IRS agreed to take corrective actions to
                                                     address Recommendations 1 and 3, but
WHAT TIGTA FOUND                                     disagreed with Recommendation 2. The IRS
                                                     disagreed that IRS policy requires completion of
While IRS controls over wireless technology
                                                     a security assessment and authorization on
were generally in place and operating
                                                     wireless technologies that it is piloting or
effectively, TIGTA found areas where
                                                     demonstrating. TIGTA maintains that prior to
improvements can be made. Specifically, IRS
                                                     placing wireless technologies on the live IRS
network scan data revealed that four users
                                                     network, the IRS should ensure that it has
installed and used personal unauthorized
                                                     completed the required security assessment and
wireless devices on their laptops to connect to
                                                     authorization.
the IRS network. Although the users of these
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2011


 MEMORANDUM FOR CHIEF TECHONOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Security Controls Over Wireless Technology
                             Were Generally in Place; However, Further Actions Can Improve
                             Security (Audit #201120009)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has implemented effective controls to detect the unauthorized use of the wireless local area
 network (WLAN) technology, and to determine whether the IRS’s current approved wireless
 network at its National Distribution Center and its plans for increasing authorized use of WLAN
 technology at IRS facilities are in accordance with Federal wireless security standards. This
 audit is included in our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Security.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                         Security Controls Over Wireless Technology Were Generally
                          in Place; However, Further Actions Can Improve Security




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Controls Over Wireless Technology Were Generally
          in Place and Operating Effectively ............................................................... Page 4
          Additional Actions Are Needed to Further Improve
          Security Over Wireless Technology ............................................................. Page 5
                    Recommendations 1 and 2: .............................................. Page 12

                    Recommendation 3:........................................................ Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV - Management’s Response to the Draft Report ....................... Page 18
       Security Controls Over Wireless Technology Were Generally
        in Place; However, Further Actions Can Improve Security




                     Abbreviations

ACIO           Associate Chief Information Officer
ERAP           Enterprise Remote Access Project
EUES           End User Equipment and Services
IRS            Internal Revenue Service
USB            Universal Serial Bus
VPN            Virtual Private Network
WLAN           Wireless Local Area Network
                      Security Controls Over Wireless Technology Were Generally
                       in Place; However, Further Actions Can Improve Security




                                             Background

Wireless technology enables devices to communicate without physical connections, that is,
without requiring network or peripheral cabling. It can offer many benefits, such as increased
mobility, less costly installation, and easier scalability than wired technologies. However, it can
also pose significant risks to the critical infrastructure
and assets of an organization if not properly
implemented and secured. Wireless communications are              Wireless technology can pose
                                                1
vulnerable to interception, denial of service, and                significant risks to the critical
                                                                 infrastructure and assets of an
deception. The portability and wireless capability of              organization if not properly
laptops also create considerable risk. The following are            implemented and secured.
examples of well-known attacks used to exploit
vulnerabilities in wireless technologies.
    •   Readily available software tools to intercept and decipher data if strong encryption is not
        used. Intercepted wireless traffic may contain sensitive data, such as taxpayer data, or
        information that can be used to gain unauthorized access to other systems, such as
        usernames and passwords.
    •   Deployment of unauthorized wireless devices, such as access points, that are configured
        to appear as part of the agency’s wireless network infrastructure. If wireless devices are
        not adequately secured, they could provide outsiders with an avenue into the internal
        network and unauthorized access to corporate assets.
    •   Eavesdropping on a dual connection that can occur when a laptop is not configured to
        prevent more than one active Internet connection at a time—for example, a computer
        connected to a wired and a wireless network simultaneously can inadvertently become a
        bridge between a trusted and an untrusted network. Attackers use this bridge to
        eavesdrop on the user’s network communications and potentially gain unauthorized
        access to the agency’s core network.
The Internal Revenue Service (IRS) currently deploys the following types of wireless technology
and is in the process of testing and evaluating ways to expand its use as a commitment to
improve daily operations for its employees:
    •   Wireless local area network (WLAN)—a group of wireless networking nodes within a
        limited geographic area that serve as an extension to existing wired local area networks.
        Wireless networks are also known as Wi-Fi.

1
 A denial of service attack inundates a computer system or network with traffic that overloads the system resources,
causing them to cease operations or lose network connectivity.
                                                                                                            Page 1
                      Security Controls Over Wireless Technology Were Generally
                       in Place; However, Further Actions Can Improve Security



    •   Wireless remote access software—this software is used to enable wireless cards on
        laptops to allow connectivity to a personal or public wireless access point (at home,
        hotels, or airports) for accessing the Enterprise Remote Access Project (ERAP), which
        establishes a virtual private network (VPN) for authorized users to access the IRS
        network.
    •   Wireless cellular networks—a telecommunications network managed by a service
        provider that supports smartphones, such as the BlackBerry,2 which offer the ability to
        provide data such as email and Internet browsing wirelessly over cellular networks, and
        cellular data cards, which provide Internet connectivity to laptop computers by accessing
        cellular networks just as cell phones do.3
The Treasury Inspector General for Tax Administration has conducted two prior audits to detect
unauthorized wireless access points at the IRS.
    1. Our first audit report on wireless technology was issued in February 2003.4 During the
       audit, we scanned for wireless access points at IRS facilities and found an unauthorized
       wireless application in one location that was directly connected to the IRS-wide internal
       network containing sensitive taxpayer information. We also had strong indications of an
       unauthorized wireless application at another location, although we were unable to locate
       a wireless device.
    2. Our second audit report on wireless technology was issued in March 2007.5 During the
       audit, we reported an unauthorized wireless application in one location was directly
       connected to the IRS-wide internal network containing sensitive taxpayer information.
       We also had strong indications of three other unauthorized wireless applications at other
       locations.
        We also reviewed the IRS’s one authorized WLAN at the National Distribution Center in
        Bloomington, Illinois, where wireless devices are used to scan bar codes on IRS
        publications and forms and to transmit inventory data to a tracking system. During our
        audit, the IRS Computer Security Incident Response Center,6 a part of the Modernization
        and Information Technology Services organization, conducted penetration tests of the
        network’s wireless infrastructure in January and February 2006 to ensure it was securely
        configured. The tests identified that one wireless access point was using a default


2
  BlackBerry phones are locked down and are unable to access the IRS network.
3
  Cellular data cards require that users go through the ERAP in order to access the IRS network.
4
  Use of Unapproved Wireless Technology Puts Sensitive Data at Risk (Reference Number 2003-20-056, dated
February 21, 2003).
5
  Sensitive Data Remain at Risk From the Use of Unauthorized Wireless Technology (Reference Number
2007-20-060, dated March 28, 2007).
6
  Designed to ensure the IRS has a team of capable “first responders” who are organized, trained, and equipped to
identify, contain, and eradicate cyber threats targeting IRS computers and data.
                                                                                                            Page 2
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



       configuration, security devices were not in place to detect attacks against the wireless
       network, and security configurations were not being monitored. The IRS took immediate
       action to correct the default configuration and installed a network intrusion prevention
       system for the wireless network. However, by the end of our audit, the IRS had still not
       installed the software required to continuously monitor the configuration files of the
       wireless devices due to other higher priorities. Therefore, we recommended that the IRS
       take appropriate action to monitor and track the configuration files on the wireless
       network to ensure all files are set in accordance with current policy.
This review was performed at the New Carrollton Federal Building in New Carrollton,
Maryland, in the Office of Cybersecurity during the period January through May 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                      Security Controls Over Wireless Technology Were Generally
                       in Place; However, Further Actions Can Improve Security




                                       Results of Review

Controls Over Wireless Technology Were Generally in Place and
Operating Effectively
We evaluated the controls the IRS implemented for securing its wireless networks and devices
and found that the IRS:
    •    Established a wireless security policy that was generally in compliance with Federal
         standards.
    •    Deployed continuous monitoring procedures for detecting rogue wireless access points
         and other computing devices using a risk-based approach.
    •    Uses a VPN to facilitate the secure transfer of sensitive data during remote access using
         wireless technology.
The IRS still operates its one authorized WLAN at the National Distribution Center, where
wireless devices are used to scan bar codes on IRS publications and transmit inventory data to a
tracking system. We found that the wireless network components were properly configured, data
transmissions were adequately encrypted, and the WLAN generally complied with Federal
wireless security standards.
To protect against unauthorized WLANs being deployed elsewhere, the IRS periodically scans
its 3 computing centers7 and 10 campuses8 (and surrounding IRS facilities) using a manual
scanning tool. The IRS has never found any unauthorized wireless connections to its network
during these scans. Due to resource constraints, the IRS cannot scan all of its offices
(approximately 550 facilities). Therefore, it is investigating the procurement of portable
scanning devices for use nationwide. In addition, the IRS has initiated implementation of an
enterprise asset discovery tool which has the ability to identify unauthorized wireless devices on
the network.
As part of IRS Commissioner Schulman’s Workforce of Tomorrow strategy, which is to make
the IRS one of the best places to work through technology improvements, the IRS is currently
evaluating the expansion of two types of wireless technology: deployment of additional WLANs


7
  IRS computing centers support tax processing and information management through a data processing and
telecommunications infrastructure.
8
  IRS service center campuses are the data processing arms of the IRS. They process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 4
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



at IRS facilities and software configurations that allow laptop users to make wireless remote
access connections to the IRS network from non-IRS facilities (e.g., hotels, airports, or homes).
With the intent to expand the use of WLANs, the IRS has recently set up test WLANs in
two locations as demonstrations that provide wireless access to the IRS network to selected
employees. Wireless access points connected to the IRS network allow employees direct access
to the network using the built-in wireless network interface cards on their laptops. The IRS
completed a risk assessment of this testing process and identified several recommendations for
mitigating identified risks.
We confirmed that the IRS took steps to mitigate the risk of dual connection by utilizing a
software solution to prevent users from connecting simultaneously to a wireless and wired
network and creating an insecure bridge that attackers could exploit. We conducted limited
testing of this control and determined that it was in place and operating effectively. We also
confirmed that the IRS had changed the name of the wireless access point used in their testing to
attract less attention from unauthorized users. Finally, we confirmed that the IRS used the most
current authentication and encryption technology available for wireless networks, called Wi-Fi
Protected Access, as required by Federal standards.
The IRS is also evaluating the use of wireless remote software configurations that allow laptop
users to make wireless remote access connections to the IRS network from non-IRS facilities
(e.g., hotels, airports, or homes). In April 2010, the IRS updated its security policy to allow
enabling of wireless configurations on laptops to allow users to connect to IRS networks via their
built-in wireless network cards and utilizing the ERAP, the agency’s secure VPN-based remote
access solution. The IRS wrote a software program in Fiscal Year 2010 to start testing the
enablement of the built-in wireless network cards, and it is currently working towards an
enterprise-wide solution for the usage of this wireless remote access feature.

Additional Actions Are Needed to Further Improve Security Over
Wireless Technology
While we found that the IRS was generally complying with Federal wireless security practices,
we found four areas where improvements could be made to security over wireless technology
used in the IRS.
   •   Use of automated monitoring to improve detection of unauthorized wireless devices.
   •   Adherence to IRS policy when developing new wireless technologies.
   •   Timely monitoring of wireless router configuration files on the existing WLAN.
   •   Addressing dual connection in IRS policy.



                                                                                            Page 5
                     Security Controls Over Wireless Technology Were Generally
                      in Place; However, Further Actions Can Improve Security



Automated monitoring can better detect unauthorized wireless devices used to
access the ERAP
Due to the complexity of properly configuring and ensuring a secure wireless connection, IRS
policy requires wireless devices to be acquired and provided by the Modernization and
Information Technology Services organization. Additionally, only authorized wireless
technologies and devices that have a completed security assessment and authorization by the
Modernization and Information Technology Services organization and the Cybersecurity
organization, a part of the Modernization and Information Technology Services organization, can
be used within the IRS. The purpose of this policy is to ensure that wireless devices are properly
configured to comply with the IRS’s security policies. IRS policy also prohibits users with
administrator privileges from altering any security component configurations or settings on their
laptops or desktops without written approval of the Designated Accrediting Authority. In
addition, IRS policy prohibits personally owned equipment, such as wireless Universal Serial
Bus (USB) devices9 as pictured below, from being connected either directly or via VPN to the
IRS network.
The Department of the Treasury security policy requires
bureaus to ensure that unapproved wireless networking
capabilities of laptops and other devices are monitored
through automated means for unauthorized changes.
We identified four IRS laptops which used personally
owned USB wireless adapters to connect to the IRS
network via the ERAP during the time period January to
March 2011. USB wireless adapters are not approved for
use at the IRS. Administrator privileges were required to
install the USB wireless adapter drivers to enable the
wireless connection to the ERAP using the USB wireless
adapter.
Two of these laptops belonged to IRS employees, and two belonged to contractors. We found
three adapters installed on one contractor’s laptop. The contractor stated that he tried but was
unable to connect to the network with these devices. However, our research revealed that in fact
his computer did wirelessly connect to the network with one of these devices.
Each of these users, after making the wireless remote connection, logged onto the IRS network
via the ERAP, which requires 2-factor authentication before granting the user access to the IRS
network. Although the USB wireless adapters were not authorized, the users were authorized to
access the IRS network. However, the installation and use of unauthorized wireless devices is


9
  Wireless USB adapters allow devices to connect to a wireless network. As of Calendar Year 2010, most newer
laptops come equipped with internal adapters, also called wireless network interface cards.
                                                                                                        Page 6
                     Security Controls Over Wireless Technology Were Generally
                      in Place; However, Further Actions Can Improve Security



prohibited by IRS policy because their use could put the IRS at risk of unauthorized access to its
network and data. We did not evaluate the security configurations of these laptops. However,
during the installation, users with administrative privileges could inadvertently or intentionally
alter security settings that could expose the laptops to attacker exploits. For example, if the users
do not ensure that configurations are set to prevent dual connections, attackers could gain
unauthorized access to the IRS network.
We identified these four laptops using a snapshot of IRS network scan data from Tivoli,10
collected once a week over a 6-week period, and device data collected by the IRS asset discovery
tool called Business DNA.11 The IRS’s current wireless monitoring efforts using their manual
scanning tool would not have identified these instances of personal USB wireless adapters
because the scanning at the computing centers and campuses is looking for wireless access
points. Enhancing the IRS’s current manual scanning at its main sites with the use of the IRS’s
already available automated scanning tools that collect data enterprise-wide can improve its
continuous monitoring and detection of rogue wireless software and devices. This method would
lower the resources needed while achieving enterprise-wide scanning coverage and provide data
on both unauthorized wireless access points and the use of unapproved wireless software and
devices.
In addition, we provided the IRS Computer Security Incident Response Center and the End User
Equipment and Services (EUES) organization, divisions within the Modernization and
Information Technology Services organization, with the documentation for the four laptops that
used the wireless USB adapters (including the specific laptops and names of the laptop owners).
However, in response to the noncompliant activity we identified, the IRS was unable to complete
sufficient follow-up activities to ensure the illegal wireless software was removed and
disciplinary actions were taken as necessary. Without adequate processes to handle incidents of
noncompliance with IRS security policy, the noncompliant activity may continue to put the IRS
network at risk of attacker exploits.

Adherence to policy when developing new wireless technologies needs
improvement
IRS policy requires that all wireless remote configurations must go through the Enterprise Life
Cycle12 process and be approved by the Associate Chief Information Officer (ACIO),


10
   The Tivoli® applications provide the IRS with the ability to systemically deliver the most current versions of
software and updated security patches to employees’ computers and to scan the network for maintaining computer
inventory records.
11
   Business DNA is an asset discovery tool that provides detailed hardware and software configuration information
for all devices connected to the network. The Department of the Treasury recently selected Business DNA as the
enterprise tool for all bureaus to use in information technology asset discovery, inventory, and reporting.
12
   A structured business systems development method that requires the preparation of specific work products during
different phases of the development process.
                                                                                                          Page 7
                     Security Controls Over Wireless Technology Were Generally
                      in Place; However, Further Actions Can Improve Security



Cybersecurity. In addition, all wireless networks and devices must have a completed security
assessment and authorization before they are used within the IRS.
Further, the National Institute of Standards and Technology13 recommends that agencies establish
and enforce usage restrictions and implementation guidance for wireless access. According to
the National Institute of Standards and Technology standards, security policies should identify
which users are authorized to connect wirelessly to an agency’s networks, detail which
wireless-enabled devices can connect to the agency’s networks remotely, and describe the types
of external networks permitted. For example, policies should specify if users connecting
remotely through public hot spots to an agency’s networks are authorized to use only
agency-issued mobile devices. In addition, the Department of the Treasury security policy
requires bureaus to establish usage restrictions and implementation guidance for wireless
technologies and to document, monitor, and control wireless access to the information system.
As previously mentioned, the IRS is evaluating the expansion of two types of wireless
technology for its employees.
Expansion of the WLAN at IRS Facilities. Contrary to its wireless security policy, the IRS did
not intend to conduct a security assessment and authorization until after its WLAN
demonstrations on the IRS network were complete. The IRS planned to take what they learned
from these demonstrations, make final decisions on equipment needs, and then proceed with the
formal security assessment and authorization process. The IRS also stated that conducting the
demonstration on the production network would give them a better sense of what the true
implications of the WLAN would be and would allow a large number of people to participate.
However, after we began our review, the Cybersecurity organization completed a risk assessment
of the WLAN security controls in February 2011, and the Designated Accrediting Authority
signed a memorandum accepting the reported risks and authorizing the demonstrations to operate
on the IRS production network. In addition, the Architecture and Implementation division, a part
of the Cybersecurity organization, signed a waiver for the WLAN’s use of products not yet
approved for use in the IRS environment. We reviewed the components of the WLAN being
demonstrated at the New Carrollton Federal Building and found the WLAN generally complied
with Federal security requirements for wireless networks.
Expansion of Wireless Remote Access by Employees. The wireless remote configuration in use
at the IRS to access the ERAP had not been properly assessed or approved for use in the IRS
environment. In early 2010, a wireless configuration was developed to provide IRS employees
wireless access to the IRS network while at off-site locations such as hotels and airports.
According to EUES organization management, approximately 300 users were allowed to


13
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines, including minimum requirements, for providing adequate information security
for all Federal Government agency operations and assets.
                                                                                                         Page 8
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



participate in a limited demonstration of the technology at an IRS conference in May 2010.
Rather than removing the wireless capability from the users until proper security testing and
approvals of the configuration were completed, EUES organization officials informed us that the
configuration remains in use. They also informed us that controls were not in place to prevent
the configuration from being shared with unauthorized users, and that they believed the
configuration was in fact being shared with users that were not a part of the May 2010
demonstration. We identified 12 users who were not associated with the May 2010
demonstration but used a wireless remote configuration to access the ERAP during January
through March 2011.
The ACIO, Cybersecurity, disagreed that this software that was demonstrated in May 2010
required the completion of the Enterprise Life Cycle or a security assessment and authorization
at this stage in its development. The ACIO stated that the EUES and Cybersecurity
organizations planned to evaluate how wireless remote access worked in the production
environment and gather feedback from the users at the demonstration to help shape the ultimate
design of the wireless solution for when it is deployed. In addition, the ACIOs of the
Cybersecurity and EUES organizations indicated they were not concerned about, and had no
need to know, which users and computers have the unapproved configuration installed, as use of
the configuration poses no security risk because the ERAP process controls access to the IRS
network.
We did not identify any security vulnerabilities related to this configuration. However, as system
administrators install this configuration for themselves or for others, we believe that settings
could be changed that leave vulnerabilities exposed. We also believe that the IRS should know
which users and computers have installed software while still in a demonstration phase, in the
event that the IRS determines the configuration did not meet current or future IRS standards or
requires security patches or updates until an enterprise-wide solution is approved.
The IRS shared with us that this software had subsequently been abandoned for a new wireless
remote configuration, which is currently undergoing testing. The IRS has no idea on which
laptop computers the older configuration resides. As a result, unapproved and untested software
is currently in use on an unknown number of IRS computers. If security problems are
discovered during testing of the new configuration that may also affect the old one, the IRS
cannot ensure the removal of the old configuration.
IRS policy helps to ensure proper controls are placed over the development and use of wireless
remote configurations. Without adhering to these controls, the IRS risks the introduction of
configurations into the production environment that could contain security vulnerabilities.
For both wireless expansion efforts, the ACIO, Cybersecurity, and Treasury Inspector General
for Tax Administration disagreed on how to interpret IRS policy, which states that wireless
networks, devices, and remote access configurations must have a completed security assessment
and authorization before they are used within the IRS. The ACIO, Cybersecurity, believed IRS

                                                                                           Page 9
                   Security Controls Over Wireless Technology Were Generally
                    in Place; However, Further Actions Can Improve Security



use of the WLAN networks and wireless remote configuration software prior to completion of a
security assessment and authorization was not contrary to IRS policy because (1) wireless access
to the IRS network is no longer prohibited (based on the April 2010 policy update); (2) the
demonstration-type testing of wireless technologies is intentionally performed prior to beginning
the Enterprise Life Cycle to allow the IRS to determine what wireless components it plans to
implement enterprise-wide and, once determined, would then warrant completion of the
Enterprise Life Cycle milestone, testing, and approval processes; and (3) he was aware and had
verbally approved of the actions taken in both the WLAN and wireless remote configuration
instances.
We are concerned that, without requiring proper security assessments and authorizations before
allowing use of wireless technology in the IRS environment, security flaws could exist in the
untested technology that could leave the IRS open to attacks that exploit wireless networks or
transmissions.

Corrective action to ensure timely monitoring of configuration files, taken in
response to a prior audit finding at the National Distribution Center, was not
effective
To minimize network security vulnerabilities and exposures, the IRS guidelines, standards, and
procedures require IRS staff to periodically assess compliance of all network components, such
as switches and routers. IRS staff should use configuration validation tools to measure
compliance against the established security baseline.
The IRS currently has one authorized WLAN at its National Distribution Center, where wireless
devices are used to scan bar codes on IRS publications and transmit inventory data to a tracking
system. In March 2007, we reported that the IRS was not adequately monitoring the security
configurations on the WLAN. The IRS agreed to monitor the configuration files on the WLAN
on a monthly basis to ensure all configurations adhered to IRS standards.
During our current review, we found that the IRS had not been conducting the manual monthly
reviews of the configuration files for the two switches on the WLAN as they had agreed to do in
response to our prior finding. Per the IRS, the last validation of the configuration files for these
switches occurred during December 2009.
The cause for not monitoring configurations as planned was due to a reorganization of the
territory and loss of personnel. Enterprise Network organization managers, a part of the
Modernization and Information Technology Services organization, failed to identify and reassign
this responsibility after the employee who had been responsible for the monthly manual
monitoring had been transferred. Enterprise Network organization managers assumed the
configuration files for these switches were being captured electronically and reviewed remotely.
The Enterprise Network organization staff informed us that the configuration files for these two
switches cannot be reviewed remotely because these switches sit behind the devices that encrypt

                                                                                            Page 10
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



the wireless network. The Enterprise Network organization staff also informed us that they
believe manually pulling the configurations for these switches every 3 months, rather than
monthly, would be adequate. They believe the less frequent reviews would be adequate due to
the wireless detection systems they have installed, the infrequent changes to the switches, and the
cost of manpower and travel to the site to conduct the reviews.
Network switches provide services that are essential to the operation of the IRS local area
networks and the customers they serve. Poor security can expose the entire IRS network,
components, and configurations to attackers whose goal is to reduce network and data integrity.
Compromise of a network switch can lead to reduced performance, denial of service, and
exposure of sensitive taxpayer data. Inadequate monitoring of the configuration files for the
wireless network switches could increase the likelihood of the network being compromised and
operations disrupted.

Security policy did not address dual connection
The National Institute of Standards and Technology guidelines recommend that laptops be
configured to not allow the simultaneous use of more than one network interface; that is, the
wireless capability of the laptop should be turned off or disabled when the laptop is connected to
the agency’s wired network. If wireless-enabled laptops are not configured to prevent
simultaneous (or dual) connections, an attacker could connect to the laptop’s wireless interface
while the laptop is connected to the agency’s wired network, potentially allowing the attacker
unauthorized access to the agency network.
The Government Accountability Office reported in November 2010 that many agencies had not
addressed the risk of dual connection of laptops in their security policies, and none of the five
agencies where the Government Accountability Office conducted detailed testing had
implemented controls to prevent it.
We reviewed the IRS’s wireless security policy and found that it did not address the risk of dual
connection on wireless-enabled laptops. We also noted that the Department of the Treasury
security policy did not address dual connection in November 2010; however, it issued a security
policy update in March 2011 that does address dual connection.
The IRS informed us that the software installed on users’ laptops to enable WLAN connectivity
for participating in the demonstrations includes an “exclusive connection” feature which allows
no more than one active connection at a time and therefore addresses the dual connection risk.
We tested this control during our visit to New Carrollton and found that it worked effectively to
prevent dual connection.
However, until the IRS fully documents policies prohibiting dual connections, an increased risk
exists that future wireless technology projects may not implement sufficient controls to address
this risk, potentially allowing an attacker to exploit this vulnerability and gain unauthorized
access into the IRS network to destroy, modify, or copy sensitive information.

                                                                                          Page 11
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



Management Action: The IRS updated the Internal Revenue Manual during our fieldwork to
address the condition above. The Internal Revenue Manual now requires that WLAN clients be
configured so only one active physical network connection is possible, either wired or wireless,
at any time and that WLAN clients be configured to prevent dual connections.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Implement automated nationwide network scans for unauthorized
wireless activity, devices, and software using Tivoli or Business DNA, and improve processes to
handle incidents of noncompliance with IRS security policy so that when unauthorized wireless
activity is identified, subsequent investigations and disciplinary actions are effective.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       use a set of automated tools to determine wireless activity, devices, and software as part
       of full deployment of a wireless strategy. In conjunction with the automated tools, the
       IRS will incorporate the use of wireless network scanners in areas where it determines
       there is the potential for the greatest risk.
Recommendation 2: Ensure that a security assessment and authorization is completed for all
wireless technologies prior to use in the IRS environment, in compliance with IRS policy.
       Management’s Response: The IRS disagreed with this recommendation. IRS
       policy does not require completion of a security assessment and authorization on
       technologies, but rather on information systems. IRS policy requires that new
       technology, such as wireless technology, undergo security assessment and authorization
       when it is utilized by an IRS information system that is being designed, developed, and
       expected to be ultimately deployed into full production. In the case of the wireless pilot,
       a risk assessment was performed and the Authorizing Official authorized the pilot to
       begin. However, a full security assessment and authorization for the wireless pilot would
       be premature as the wireless pilot was still in the design phase and being conducted in an
       area where users had little access to taxpayer data. Performing security assessment and
       authorizations on pilots, tests, and/or demonstrations would not allow the IRS the ability
       to make effective risk-based decisions regarding the appropriate, secure, and
       cost-effective use of what in this case was wireless technology.
       Office of Audit Comment: We agree that IRS policy would not require the
       completion of a security assessment and authorization if the IRS conducted its wireless
       pilots and demonstrations on a test network. However, the IRS placed the wireless pilot
       on the live IRS network. Likewise, the IRS demonstrated the wireless remote access
       configuration that still provides an unknown number of users access to the live IRS
       network prior to completing any security assessment and authorization activities. At the

                                                                                          Page 12
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



       start of our review, the IRS had informed us that it did not plan to perform any security
       assessment and authorization activities for its wireless pilots or demonstrations. We
       agree that the risk assessment that the IRS subsequently conducted prior to deploying the
       wireless pilot helped to mitigate potential risks. However, prior to piloting,
       demonstrating, or any use of wireless technology on the live IRS network, we continue to
       recommend that the IRS remain diligent in completing commensurate security
       assessment and authorization activities in compliance with IRS policy in order to detect
       and avoid security risks that could leave the IRS open to attacks.
Recommendation 3: Ensure the Enterprise Networks organization takes appropriate action to
reinstate monitoring and tracking of configuration files on the WLAN at the National
Distribution Center at appropriate intervals to ensure all files are set in accordance with IRS
security policy.
       Management’s Response: The IRS agreed with this recommendation. Enterprise
       Networks has assigned the site to an employee to reinstate routine monitoring and
       tracking of configuration files on the WLAN at quarterly intervals to ensure all files are
       set in accordance with IRS security policy.




                                                                                           Page 13
                     Security Controls Over Wireless Technology Were Generally
                      in Place; However, Further Actions Can Improve Security



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

Our objectives were to determine whether the IRS has implemented effective controls to detect
the unauthorized use of the WLAN technology, and to determine whether the IRS’s current
approved WLAN at its National Distribution Center and its plans for increasing the authorized
use of WLAN technology at IRS facilities are in accordance with Federal wireless security
standards. To accomplish these objectives, we:
I.      Evaluated the adequacy of IRS policies related to wireless technology.
II.     Evaluated IRS efforts at identifying unauthorized wireless access points and devices.
        A. Determined whether IRS corrective action from our prior report1 was implemented.
        B. Obtained and reviewed Tivoli2 and Business DNA3 data.
III.    Provided information to the IRS (for further investigation) on any potential unauthorized
        devices or access points we identified.
IV.     Identified software utilities that may be able to remotely scan for unauthorized wireless
        activity.
V.      Determined whether the IRS-approved WLAN at the National Distribution Center was
        configured in accordance with Federal wireless security standards.
        A. Determined whether IRS corrective action from our prior report4 was implemented.
        B. Obtained and reviewed the current WLAN design documentation.
VI.     Determined whether the IRS’s plans for increasing the authorized use of WLAN
        technology at IRS facilities was in accordance with Federal wireless security standards.
        A. Obtained and reviewed the IRS design documents for its WLAN demonstration.

1
  Use of Unapproved Wireless Technology Puts Sensitive Data at Risk (Reference Number 2003-20-056, dated
February 21, 2003).
2
  The Tivoli® applications provide the IRS with the ability to systemically deliver the most current versions of
software and updated security patches to employees’ computers and to scan the network for maintaining computer
inventory records.
3
  Business DNA is an asset discovery tool that provides detailed hardware and software configuration information
for all devices connected to the network. The Department of the Treasury recently selected Business DNA as the
enterprise tool for all bureaus to use in information technology asset discovery, inventory, and reporting.
4
  Sensitive Data Remain at Risk From the Use of Unauthorized Wireless Technology (Reference Number
2007-20-060, dated March 28, 2007).
                                                                                                         Page 14
                  Security Controls Over Wireless Technology Were Generally
                   in Place; However, Further Actions Can Improve Security



       B. Determined whether the IRS WLAN demonstration design documents met Federal
          standards for deploying and monitoring a secure WLAN.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices for ensuring wireless technology is compliant with Federal standards. We evaluated
these controls by interviewing Cybersecurity and EUES organization officials, reviewing
network scan data, evaluating design documentation of the existing and planned WLANs, and
testing WLAN demonstration components.




                                                                                        Page 15
                 Security Controls Over Wireless Technology Were Generally
                  in Place; However, Further Actions Can Improve Security



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Larry Reimer, Audit Manager, Technical Audit Group
Cari Fogle, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
Victor Taylor, Auditor




                                                                                     Page 16
                Security Controls Over Wireless Technology Were Generally
                 in Place; However, Further Actions Can Improve Security



                                                                       Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Chief Counsel CC
Director, Wage and Investment Business Systems Planning SE:W:BMO:BSP
Director, Office of Program Evaluation and Risk Analysis RAS:O
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
       Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 17
     Security Controls Over Wireless Technology Were Generally
      in Place; However, Further Actions Can Improve Security



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 18
Security Controls Over Wireless Technology Were Generally
 in Place; However, Further Actions Can Improve Security




                                                      Page 19
Security Controls Over Wireless Technology Were Generally
 in Place; However, Further Actions Can Improve Security




                                                      Page 20
Security Controls Over Wireless Technology Were Generally
 in Place; However, Further Actions Can Improve Security




                                                      Page 21
